                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 14-00637-199



                Healthcare Inspection 


     Resident Supervision in the 

           Operating Room 

 Ralph H. Johnson VA Medical Center 

     Charleston, South Carolina 





June 23, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                 Resident Supervision in the Operating Room, Ralph H. Johnson VAMC, Charleston, SC



                                 Executive Summary 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted a
review in response to the allegation that inexperienced and first-year residents in the
Anesthesiology Service at the Ralph H. Johnson VA Medical Center were improperly
supervised while in the operating room. During this review, OIG assessed the merit of
the allegations.

We conducted an unannounced site visit at the facility from February 19–20, 2014.
Upon arrival at the facility, we immediately inspected the operating room (OR). We
observed four procedures that were either in progress or being initiated at the time of
our unannounced inspection. We identified and recorded the names and positions of
the staff present and participating in each OR. In all four instances, the appropriate staff
was present.       Oversight was consistent with required anesthesiology resident
supervision.

We did not substantiate the allegation that anesthesiology residents are inadequately
supervised while in the OR. We concluded that supervisory practices and expectations
are clearly understood and adhered to by facility attendings, residents, and OR staff.

We made no recommendations.

Comments
The Veterans Integrated Service Network and System Directors concurred with the
report. (See Appendixes A and B, pages 6–7, for the Directors’ comments.) No further
action is required.




                                                           JOHN D. DAIGH, JR., M.D.
                                                          Assistant Inspector General for
                                                            Healthcare Inspections




VA Office of Inspector General                                                                   i
                    Resident Supervision in the Operating Room, Ralph H. Johnson VAMC, Charleston, SC


                                                 Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection in response to an allegation of failure to supervise “inexperienced” and
first-year anesthesia residents in the operating rooms (ORs) of the Ralph H. Johnson
VA Medical Center, Charleston, SC (facility). The purpose of this inspection was to
assess the merit of this allegation.

                                             Background 

Facility Profile. The facility is a 117-bed tertiary care medical center that provides
acute medical, surgical, and psychiatric inpatient care as well as outpatient primary and
mental health care. The facility, a referral center for six community based outpatient
clinics located in South Carolina and Georgia, is part of Veterans Integrated Service
Network (VISN) 7 and serves more than 53,000 veterans along the South Carolina and
Georgia coastline.

The facility is designated as a Complex VHA Surgical Program.1 In addition to general
surgery, some of the more complex cases performed at the facility include
cardiothoracic, bariatric, and plastic surgery. Currently the facility has five operating
rooms.

The facility is affiliated with the Medical University of South Carolina (MUSC), which is
also located in Charleston. As such, medical students, all program year residents,
fellows, and nurses-in-training participate in clinical rotations at the facility.2 Specifically,
MUSC’s Anesthesiology Residency, “an integrated 4-year training program (intern year
and 3-year residency),” includes rotations at the facility for both general and
cardiothoracic anesthesia.

Allegation. On September 20, 2013, OIG’s Hotline Division received an allegation that
inexperienced anesthesia residents were not properly supervised while in the OR and
that first-year residents were left alone for long periods of time without supervision.
According to the complainant, this situation had been occurring since July 1, 2012.

                                Scope and Methodology 

We conducted an unannounced site visit at the facility February 19–20, 2014. Upon
arrival at the facility, we immediately inspected the OR. We observed four procedures
that were either in progress or being initiated at the time of our unannounced inspection.


1
  VHA Directive 2010-018, Facility Infrastructure Requirements to Perform Standard, Intermediate, or Complex 

Surgical Procedures, May 6, 2010. 

2
  The term “resident” includes individuals in their first year of training after completing medical school, who are 

sometimes referred to as “interns,” and individuals in approved subspecialty graduate medical education programs, 

who are also referred to as “fellows.” Fellows have already completed their residency training and are continuing

further training in a subspecialty program.



VA Office of Inspector General                                                                                      1
                     Resident Supervision in the Operating Room, Ralph H. Johnson VAMC, Charleston, SC
We identified and recorded the names and positions of the staff present and
participating in each OR.

We interviewed relevant clinical and managerial staff including the facility’s Chief of
Anesthesia, Chief of Surgery, Chief Certified Registered Nurse Anesthetist (CRNA),
Associate Chief of Staff for Education, as well as OR staff nurses, anesthesiology
residents, surgical residents, anesthesiologists, and surgeons.

We reviewed relevant facility policies and procedures and related VHA guidelines. We
also reviewed the following:

         Accreditation Council for Graduate Medical Education (ACGME)3 guidelines
          regarding resident supervision
         ACGME Surgical and Anesthesia Resident Survey results for FY 2012–2013
         Facility patient safety reports and peer reviews involving surgery and anesthesia
          residents
         Facility and MUSC Letters of Agreement for the Surgery, Anesthesiology, and
          Cardiothoracic Anesthesiology Services
         The Veterans Health Administration’s FY 2013 Quarter 4 National Surgical
          Office Report
         Surgical and anesthesiology residents’ credentials and primary source
          verification documentation
         OR staffing board and daily assignment ledgers
         Electronic Health Record (EHR) documentation of medical staff present in the
          OR during particular procedures
         Supervisor and resident OR schedules for the week of February 16, 2014

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
 The ACGME is the body responsible for accrediting the majority of graduate medical training programs for physicians in the
United States. It is a non-profit private council that evaluates and accredits medical residency and internship programs.



VA Office of Inspector General                                                                                                2
                    Resident Supervision in the Operating Room, Ralph H. Johnson VAMC, Charleston, SC



                                     Inspection Results 

Issue 1: Inadequate Supervision of Anesthesiology Residents in the OR

We did not substantiate the allegation that inexperienced anesthesia residents were not
adequately supervised or that first-year residents were left alone for long periods
without supervision while in the OR.

Unannounced Inspection of the Facility’s ORs

Upon arrival at the facility’s OR suites, we identified four procedures either in progress
or just being initiated. In all four instances, the appropriate staff were present.
Oversight was consistent with required anesthesiology resident supervision.

Both the ACGME4 and VHA5 guidelines require documented evidence of faculty
involvement with direct clinical supervision, tutorials, and lectures of residents.
Additionally, the facility requires that all staff who provide care and/or who are present
throughout a procedure in the OR be documented in a patient’s EHR.

Our observations during the unannounced inspection were generally consistent with
documentation in the EHR. The EHRs accurately reflected the staff present in three of
the four cases. Documentation for one case did not reflect a second CRNA who
relieved the CRNA who initiated the case.

Anesthesiology residents we interviewed reported that they received sufficient
supervision by attending anesthesiologists. They stated that anesthesiology attendings
were either in the OR with the resident or nearby and readily available for questions
and/or to assist. In fact, some residents reported feeling that they were frequently
over-supervised, in that residents nearing the completion of their residency program
reported being supervised with similar intensity as less advanced residents.
Additionally, residents stated that they have a “good team” in the OR, one that is cordial
and patient focused, and they feel psychologically safe to ask questions.

We found that the facility holds three orientations in June and July for incoming
residents. During these orientations, expectations and sources for guidance are clearly
discussed, and the various channels for residents to address questions and/or concerns
are presented.

Residents who rotate through a VA facility and training sites are given the opportunity to
complete confidential written evaluations, “The ACGME Resident Survey,” of
supervising practitioners. Residents at the facility completed the ACGME Resident
Survey during April–May 2013. One hundred percent of the facility’s anesthesiology
residents participated in this survey, and the results did not indicate concerns related to
lack of attending physician involvement or supervision.

4
    ACGME, Program Requirements for Graduate Medical Education in Anesthesiology, July 1, 2008.
5
    VHA Handbook 1400.01, Resident Supervision, December 19, 2012.


VA Office of Inspector General                                                                     3
                    Resident Supervision in the Operating Room, Ralph H. Johnson VAMC, Charleston, SC


Resident Supervision and Local Policies

According to VHA, first post-graduate year (PGY-1) residents performing OR
procedures must be directly supervised at all times.6 The ACGME outlines a similar
requirement for PGY-1 anesthesiology residents, requiring that they be supervised
either directly or indirectly with direct supervision immediately available.7 The ACGME
also requires sites participating in graduate medical education (GME) to have a program
letter of agreement (PLA) between the medical program and each participating site
providing a required assignment.8            The PLA outlines the residency program
expectations for both residents and attendings. Overall, the facility’s anesthesiology
program is in compliance with these requirements.

We found that attending anesthesiologists supervised both CRNAs and anesthesiology
residents.9 Anesthesiology attendings were reported to cover no more than two
locations and were present for intubation,10 extubation,11 and other key portions of a
surgical procedure. When an anesthesiology attending is required to cover two areas,
he/she checks in with each resident and/or CRNA approximately every 15–20 minutes
and is available in either the OR suite or anesthesia offices (which are located in the
hallway directly outside the OR). It is understood that if the anesthesia provider needs
to leave the suite or office area, the process is to “hand off” care to another anesthesia
provider in the OR suite.

In addition to a general anesthesiology residency, the facility supports a cardiothoracic
anesthesia residency. The residents in this program are supervised one-to-one by an
attending anesthesiologist.

The facility Director is responsible for ensuring that a local monitoring process exists for
resident supervision and that a local policy, incorporating all required elements, is
created and entitled “Monitoring of Resident Supervision.”12 We found that the facility is
in compliance with these requirements. It had developed local policies around the
supervision of residents, monitoring of resident supervision, surgical resident work
schedules, and surgical attending and resident communication.

Advancement of Residents

A core tenant of GME is “graded and progressive responsibility.” As residents gain
experience and demonstrate growth in their ability to care for patients, they assume


6
  VHA Handbook 1400.01. 

7
  ACGME, Program Requirements for Graduate Medical Education in Anesthesiology, July 1, 2008. 

8
  ACGME, Program Requirements for Graduate Medical Education in Anesthesiology, July 1, 2008. 

9
  An attending physician is a physician who has completed residency and practices medicine in a clinic or hospital,

in a specialty learned during residency. An attending physician can supervise fellows, residents, and medical

students. Attending physicians have final responsibility, legally and otherwise, for patient care, even when many of

the minute-to-minute decisions are being made by subordinates.

10
   Intubation is the placement of a flexible plastic tube into the trachea (windpipe) to maintain an open airway.

11
   Extubation is the removal of the tube after intubation.

12
   VHA Handbook 1400.01.



VA Office of Inspector General                                                                                      4
                  Resident Supervision in the Operating Room, Ralph H. Johnson VAMC, Charleston, SC


roles that permit them to exercise those skills with greater independence.13 The
process of progressive responsibility is the underlying educational principle for GME
regardless of specialty or discipline.

Supervision in the setting of GME has the goals of assuring the provision of safe and
effective care to the individual patient while ensuring each resident’s development of the
skills, knowledge, and attitude required to move into the unsupervised practice of
medicine.14 VHA policy aligns with the ACGME guidelines. As such, a supervising
practitioner must provide an appropriate level of intensity of supervision, and
determination of the level and intensity of supervision is a function of the experience
and demonstrated competence of the resident and the complexity of a patient’s health
care needs.15 In addition, residents, as individuals, should be aware of their limitations
and not attempt to provide clinical services or do procedures for which they are not
trained.16

We found that facility and anesthesiology residency program determinations regarding
the supervision and promotion to the next level were based on competency and not
simply on the resident’s PGY. The residency program panel considers three main
factors when making such determinations. Decisions are based on formal program
requirements, input from specialty review panels that include representatives from the
VA and MUSC, and subjective opinions of attending physicians.

Issue 2: Incidental Observations Regarding Supervision of Surgery Residents in
the OR

Due to the close working relationship between surgery and anesthesiology, we also
reviewed the surgical residency supervisory practices in the OR. Surgical residents we
interviewed stated that they receive sufficient supervision by attending surgeons.
Surgical residents also stated they have a “good team” in the OR and feel
psychologically safe to ask questions. Seventy-eight percent of surgical residents
participated in the ACGME Resident Survey, and the results did not indicate any
concerns related to lack of attending physician involvement or supervision.

                                         Conclusions 

We did not substantiate the allegation that inexperienced residents in the
Anesthesiology Service were improperly supervised while in the facility’s OR. We
concluded that supervisory practices and expectations were clearly understood and
adhered to by facility attendings, residents, and OR staff.

We made no recommendations.



13
   ACGME, Program Requirements for Graduate Medical Education in Anesthesiology, July 1, 2008. 

14
   ACGME, Program Requirements for Graduate Medical Education in Anesthesiology, July 1, 2008. 

15
   VHA Handbook 1400.01. 

16
   VHA Handbook 1400.01.



VA Office of Inspector General                                                                     5
                 Resident Supervision in the Operating Room, Ralph H. Johnson VAMC, Charleston, SC
                                                                                      Appendix A
                               VISN Director Comments


               Department of
               Veterans Affairs                              Memorandum

       Date:   June 2, 2014

       From: Network Director, VA Southeast Network (10N7)

       Subj:   Healthcare Inspection—Resident Supervision in the Operating
               Room, Ralph H. Johnson VA Medical Center, Charleston, SC

       To:     Director, Seattle Regional Office of Healthcare Inspections (54SE)

       Cc:     Director, Management Review Service (VHA 10AR MRS OIG
               Hotline)



       1. VISN 7 concurs with the subject Healthcare Inspection Report. Thanks
          for your review and validation of the Charleston VAMC’s resident
          supervision practices.

       2. If there are any questions, please contact Dr. Robin Hindsman at 678-
          924-5723.



       (original signed by:)
       Charles E. Sepich, FACHE




VA Office of Inspector General                                                                  6
                 Resident Supervision in the Operating Room, Ralph H. Johnson VAMC, Charleston, SC
                                                                                      Appendix B
                          Facility Director Comments


               Department of
               Veterans Affairs                              Memorandum

       Date:   May 27, 2014

       From: Director, Ralph H. Johnson VA Medical Center (534/00)

       Subj:   Healthcare Inspection—Resident Supervision in the Operating
               Room, Ralph H. Johnson VA Medical Center, Charleston, SC

       To:     Director, VA Southeast Network (10N7)



       This is response to the VA Office of Inspector General (OIG) Office of
       Healthcare Inspections. An onsite review regarding resident supervision
       in the operating room at the Ralph H. Johnson VA Medical Center was
       conducted on February 19-20, 2014. We concur with the report.



       (original signed by:)
       Scott R. Isaacks, FACHE




VA Office of Inspector General                                                                  7
                 Resident Supervision in the Operating Room, Ralph H. Johnson VAMC, Charleston, SC
                                                                                      Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Sarah Mainzer, RN, JD, Team Leader
                         Carol Lukasewicz, BSN, RN
                         Sami O’Neill, MA
                         Victor Rhee, MHS
                         George Wesley, MD
                         Marc Lainhart, BS, Management and Program Analyst




VA Office of Inspector General                                                                  8
                 Resident Supervision in the Operating Room, Ralph H. Johnson VAMC, Charleston, SC
                                                                                      Appendix D


                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southeast Network (10N7)
Director, Ralph H. Johnson VAMC (534/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Lindsey Graham, Tim Scott
U.S. House of Representatives: James E. Clyburn, Mark Sanford



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                  9
